                    December 1, 1999

                    JOHN WARD
                    VICE PRESIDENT, FINANCE, CONTROLLER

                    SUBJECT:	 Travel Advances
                              Report Number FR-FA-00-005

                    This report presents an interim finding identified during our
                    audit of the United States Postal Service financial
                    statements for fiscal year (FY) 1999, San Mateo Accounting
                    Service Center (Project No. 99PA010FR001).

Results in Brief	   Postal employees that received travel advances were
                    neither submitting Postal Service Form 1012, Travel
                    Voucher, nor repaying travel advances timely after
                    completing their travel. Seventy-seven travelers had travel
                    advances outstanding for more than a year after they
                    completed their travel.

                    This occurred because postal employees that received
                    travel advances did not submit Postal Service Form 1012,
                    Travel Voucher, or did not repay travel advances timely
                    after completing their travel.

Background	         The Postal Service Handbook F-15, Travel and Relocation,
                    dated August 1997 provides guidance for repaying travel
                    advances. Specifically:

                    ¤	 Section 4-2.1 states that “You must repay the Postal
                       Service for the advance as soon as your travel is
                       complete.”

                    ¤	 Section 10-1.1.2c states “if you do not anticipate more
                       travel within the following 3-week period, then you must
                       submit a travel voucher immediately and claim your
                       travel expenses.”

                    ¤	 Section 10-2.1 states “if the amount of your outstanding
                       travel advance exceeds the amount of your travel
Vendor Master File                                                              FR-FA-00-005



                             expenses, you must repay the difference as soon as
                             you complete the travel for which you received the
                             advance.”

                         The Postal Service began a program in March 1994 to
                         reduce travel advances issued to personnel by having funds
                         disbursed to them via automatic teller machines. As a
                         result, the total amount of outstanding travel advances was
                         reduced from over $6 million in 1993 to the current level of
                         approximately $1 million.

Objective, Scope, and Our objective was to review controls over the travel advance
Methodology           process. We conducted this portion of the audit from
                      September 1998 through September 1999 in accordance
                      with generally accepted government auditing standards and
                      included tests of internal controls as were considered
                      necessary under the circumstances.

                         We discussed our findings and recommendations with
                         appropriate management officials and included their
                         comments, where appropriate.

Travel Advance           Seventy-seven travelers had travel advances outstanding
Repayment                for more than a year after they completed their travel. This
                         occurred because postal employees that received travel
                         advances did not submit Postal Service Form 1012, Travel
                         Voucher, or did not repay travel advances timely after
                         completing their travel.

                         Management did not review the Travel Advance Report,
                         timely or take action to clear delinquent employees on the
                         report. Currently, over 55 percent of the outstanding travel
                         advances take over four accounting periods (about four
                         months) to be recovered.

                         Handbook F-15, section 10-2.2, states “approving officials
                         will review reports to determine whether each employee
                         who is listed as having an outstanding balance is a
                         continuous traveler or will be traveling within the next three
                         weeks. If no travel is anticipated, the employee must
                         immediately refund the outstanding balance. The review by
                         approving officials helps determine which employees owe
                         money to the Postal Service.”




                                              2
                                   Restricted Information
Vendor Master File                                                         FR-FA-00-005



                     Each accounting period, the San Mateo Accounting Service
                     Center prepared a detailed travel report that listed
                     employees that had outstanding travel advances. This
                     report was provided to district finance managers based on
                     the employee’s budget authorization code and management
                     sectional code located on the report. District Finance
                     management had not periodically reviewed these reports or
                     taken action to clear employees on the Travel Advance
                     Report.

                     Failure of postal employees to repay travel advances timely
                     could result in lost interest revenue and excessive
                     administrative costs for billing.

Recommendations      We offer the following recommendations.

                     The vice president, controller, finance should:

                     1. Inform employees that receive travel advances of the
                        requirement to submit a travel voucher upon completing
                        each trip.

                     2. Emphasize the importance of reviewing the “Travel
                        Advance Report” to approving officials.

                     3. Initiate collection action procedures on outstanding travel
                        advances.

                     Please furnish a reply within 20 days describing the
                     corrective action planned or taken, including the timeframes,
                     on our recommendations. This finding will be included in a
                     consolidated report for the San Mateo Accounting Service
                     Center at the conclusion of the FY 1999 financial statement
                     audit. The report will include your comments and any
                     planned corrective actions. If you have any questions,
                     please contact                 .



                     Richard F. Chambers
                     Assistant Inspector General
                      for Performance


                     cc: Jayne E. Schwarz



                                         3
                              Restricted Information
Vendor Master File                                 FR-FA-00-005



                     Kristine A. Wright
                     John R. Gunnels




                                     4
                          Restricted Information
